<html>
<title> - EXAMINING FEDERAL MANAGERS' ROLE IN HIRING</title>
<body><pre>[Senate Hearing 115-257]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-257

               EXAMINING FEDERAL MANAGERS' ROLE IN HIRING

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2018

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        
                        
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-256PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>                        
                        
                        
                        
                     
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
                     John Cuaderes, Staff Director
                Clark Hedrick, Professional Staff Member
                  Eric Bursch, Minority Staff Director
                    Ashley Poling, Minority Counsel
           Mallory Nersesian, Subcommittee and Document Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Daines...............................................    15
    Senator Harris...............................................    18
    Senator Carper...............................................    20
    Senator Hassan...............................................    31
Prepared statement:
    Senator Lankford.............................................    37

                               WITNESSES
                        Thursday, March 1, 2018

Mark Reinhold, Associate Director Employee Services, Office of 
  Personnel Management...........................................     4
Angela Bailey, Chief Human Capital Officer, U.S. Department of 
  Homeland Security..............................................     6
Kevin Mahoney, Chief Human Capital Officer, U.S. Department of 
  Commerce.......................................................     7

                     Alphabetical List of Witnesses

Bailey, Angela:
    Testimony....................................................     6
    Prepared statement...........................................    45
Mahoney, Kevin:
    Testimony....................................................     7
    Prepared statement...........................................    53
Reinhold, Mark:
    Testimony....................................................     4
    Prepared statement...........................................    39

                                APPENDIX

Clarification statement submitted by Ms. Bailey..................    57
Responses to post-hearing questions for the Record from:
    Mr. Reinhold.................................................    58
    Ms. Bailey...................................................    61
    Mr. Mahoney..................................................    70

 
               EXAMINING FEDERAL MANAGERS' ROLE IN HIRING

                              ----------                              


                        THURSDAY, MARCH 1, 2018

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. James Lankford, 
Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Daines, Heitkamp, Carper, 
Hassan, and Harris.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning, everyone. Welcome to 
today's Subcommittee hearing entitled Examining Federal 
Managers' Role in Hiring. In the 115th Congress, this 
Subcommittee continues to look to find bipartisan solutions to 
the broadly recognized challenges which prevent the Federal 
workforce from more effectively serving the American people 
through hiring process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appenidx on page 37.
---------------------------------------------------------------------------
    We are here today to address the problems associated in 
Federal employees to fill vacancies left by a growing number of 
retiring Federal employees. The strain on agencies hinders 
their ability to accomplish their core missions and to serve 
the American people.
    In order to help alleviate this problem we will recognize 
the role that managers play in the hiring process and identify 
the ways they can be empowered to cut the time to hire a new 
employee. The hallmark of the American civil service has always 
been that we are able to draw our best and brightest to serve 
our country.
    As we sit here this morning, I am concerned that this may 
no longer be the case. The Federal Government is facing a 
hiring crisis. In 2013, the governmentwide average time to hire 
a new Federal employees was an unsatisfactory 90 days. However, 
the number has steadily risen to 106 days in 2017. Each year it 
has just gone up a little bit.
    This is not sustainable. The American economy continues to 
improve and jobs are becoming easier and easier to find in the 
private sector. For the American civil service to continue to 
recruit the best and brightest American talent, a vacancy 
cannot be open for 106 days, nor can someone in the process 
wait that long to get an answer. The best and brightest 
candidates will not wait around 3\1/2\ months and our strategy 
cannot rely on just hoping that they will.
    So that is why we are here today. It is a simple question: 
where can we cut the days in time-to-hire? What do agencies 
need to do to drive down the time-to-hire a new employee? What 
bottlenecks can be removed? What can we do to ensure that 
managers have the competence and resources they need to quickly 
bring the best and brightest on board? What can agencies do to 
prioritize this issue and ensure they are not losing qualified 
candidates to government inefficiency in the hiring process?
    We have here today three Federal agencies: Office of 
Personnel Management (OPM), the Department of Homeland Security 
(DHS), and the Department of Commerce (DOC), which are on the 
front line of all these issues. I thank all of you for being 
here today and I look forward to discussing with our 
participants ideas to improve the way agencies manage 
personnel, and thus better enabling them to deliver a more 
effective Federal workforce for the American people.
    With that I recognize Senator Heidi Heitkamp for an opening 
statement.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Senator and Chairman Lankford. 
As many of you already know, I have felt strongly about 
improving supervisory training across the Federal Government 
for some time, and I am thrilled that we are going to have a 
chance to talk about that in length today.
    I think it is also important, however, to make note about 
the administration's proposed fiscal year (FY) 2019 budget and 
the grave impact it would have on Federal employees if it were 
implement, and, consequently, the grave impact it would have on 
recruitment of Federal employees.
    The proposed threats to Federal employees in the budget are 
numerous, from pay to retirement to health care and student 
loan forgiveness benefits to collective bargaining and due 
process rights. There are proposals that treat Federal 
employees, I think, in a way that is less than fair.
    Federal employees are absolutely a critical part of the 
Federal Government and they make North Dakota and our country a 
better place to live every single day. In fact, I was just with 
one of our ranchers who was talking about the failure to have 
scientists out on the grasslands and the rangelands has really 
slows down a lot of innovation in terms of management, and I 
asked him, ``Is that because of the U.S. Department of 
Agriculture (USDA) not being fully staffed?'' He said it is a 
real problem in western North Dakota.
    And so it is really interesting to hear, people that you 
would think are maybe more conservative who would otherwise be 
very critical of, as people would expect, Federal employees, 
recognizing that we need to have these folks in these roles so 
that they can get their job done.
    So I look forward to diving into this critical problem, but 
I think we cannot talk about our lack of success in recruiting 
millennials, and I know I get in trouble when I talk about age, 
but recruiting new employees into the Federal system without 
looking at how we are treating current employees and whether--
like any other recruitment tool, the best recruitment we have 
are people who are always sitting in those desks who say, ``You 
ought to do this. It is really interesting work. I am treated 
really well at work. I am respected at work.'' And when you do 
not have an army of people out there recruiting because they do 
not feel valued at work, they do not feel like there is a 
future, we are going to have more and more problems with 
recruitment.
    And so it is really important that we talk about 
supervisory training so we improve the morale of the people who 
are there, but that we also talk about the broader public 
policy issues relative to how we are treating Federal employees 
today and how that is going to affect our recruitment for 
tomorrow.
    So thank you, Mr. Chairman, and I look forward to this 
hearing.
    Senator Lankford. Thank you. At this time we will proceed 
with testimony from our witnesses. Mark Reinhold is the 
Associate Director for Employee Services at OPM. Mr. Reinhold 
is responsible for designing, developing, and implementing 
governmentwide human resources (HR) policy and programs for 
strategic workforce planning. He previously served as OPM's 
Chief Human Capital Officer (CHCO) and has more than 25 years 
of human resources experience in the Federal Government, and is 
no stranger to that table right there, as we have tapped on 
your insight before, so thank you.
    Angela Bailey is the Chief Human Capital Officer at U.S. 
Department of Homeland Security, where she has served since 
January 2016. Prior to DHS, Ms. Bailey worked at OPM as the 
Chief Operating Officer (COO), Deputy Associate Director for 
Recruitment and Hiring, and the Chief Human Capital. Thank you 
for being here.
    Kevin Mahoney is the Chief Human Capital Officer at the 
U.S. Department of Commerce, where he has served since March 
2013. Prior to his current role, Mr. Mahoney has served as the 
Chief Human Capital Officer for the U.S. Small Business 
Administration (SBA) and the Associate Director for OPM's Human 
Capital Leadership and Merit System Accountability Division. 
Thank you for being here as well.
    I think we should all clarify for everyone, before we throw 
it around, what a CHCO is a Chief Human Capital Officer because 
that term will probably get thrown around. So there is our 
legend for the hearing today.
    I do want to thank all the witnesses for being here and I 
appreciate it very much.
    It is a custom of this Subcommittee to swear in all the 
witnesses before you testify, so if you would please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give 
before this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Reinhold. I do.
    Ms. Bailey. I do.
    Mr. Mahoney. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect all three witnesses answered in the affirmative.
    We are using a timing system today, and unfortunately we do 
have votes that are coming up around 11:30, so we will be a 
little bit tight on time to be able to get it all in, but we 
want to make sure we get everything in. So as you give your 
testimony you will see a countdown clock there and then we will 
open this up for dialogue immediately after that.
    Mr. Reinhold, you are first up.

  TESTIMONY OF MARK REINHOLD,\1\ ASSOCIATE DIRECTOR EMPLOYEE 
            SERVICES, OFFICE OF PERSONNEL MANAGEMENT

    Mr. Reinhold. Chairman Lankford and Ranking Member 
Heitkamp, thank you for the opportunity to be here today to 
discuss the important topics of hiring and supervisory training 
and development.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reinhold appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    The day-to-day operational aspects of the hiring process 
are carried out by Federal agencies but OPM plays an important 
role in promulgating regulations and guidance necessary to 
execute Federal civil service laws. OPM also provides 
oversight, leadership, tools, and assistance to help agencies 
in meeting their hiring needs and their responsibilities to 
establish and operate training programs for supervisory and 
leadership positions. As the Associate Director for Employee 
Services at OPM I appreciate the opportunity to discuss how OPM 
is working with agencies in this important areas.
    OPM recognizes the laws and regulations governing hiring 
are complex and in need of reform, and we are proactively 
working with agencies to simplify and improve hiring practices. 
We have to take a fresh look at how the system can be improved 
to better meet the needs of a 21st Century government. We can 
also do better and we continue to strive to do better.
    A few highlights of OPM's recent work just this year to 
help support improved hiring in agencies include hosting 
technical training classes for agency HR staff who provide 
staffing services, issuing a comprehensive question-and-answer 
guide on how to share certificates between agencies, new 
streamlined templates agencies can use to request approval to 
offer higher amounts of recruiting and retention incentives, a 
fast facts guide on Federal hiring authorities and flexibility, 
and approval of an extensive direct hire authority to help 
support an agency's critical need to address severe recruiting 
difficulties.
    OPM developed a number of legislative proposals that were 
delivered to Congress last year that will better enable 
agencies to recruit highly talented individuals. The 
administration continues to support these proposals and we 
would like to thank Chairman Lankford for sponsoring some of 
them. OPM also appreciate Ranking Member Heitkamp and the full 
Committee's work in advancing these proposals and we look 
forward to continuing our work with the Committee to ensure 
their enactment.
    The average time-to-hire for fiscal year 2017 is just under 
106 days. This is an improvement from the 122 baseline 
established in 2009, but disappointing considering the 87-day 
average that agencies achieved overall in fiscal year 2012. The 
average time-to-hire has increased each year since 2012.
    The 80-day end-to-end hiring model identifies the key 
components of the hiring process. Many of the core elements and 
steps in the Federal hiring process are not unlike the hiring 
process in other sectors. However, there are additional 
elements of the Federal hiring process that differ from common 
practice in other sectors, such as providing preference to 
veterans who served our country and selection rules based on 
the merit system principles.
    We recognize that time-to-hire is not a perfect metric for 
success. We must also look at the quality of the hire, and we 
must make sure that we are hiring people with the skill sets 
that are fully aligned with agency mission needs.
    As part of OPM's goal to support improvements in agency 
hiring programs, this year OPM launched the Federal Human 
Resources Institute to offer a robust training curriculum for 
HR professionals. OPM is also launching a new interagency 
developmental program through which OPM will host HR 
professionals in various OPM policy offices to enable these 
professionals to develop highly needed expertise.
    OPM is also looking at ways to provide tools to agencies 
that can help them improve the way they assess applications. 
USA Hire is a professionally designed library of off-the-shelf 
assessment solutions to produce higher quality candidate 
referral lists. These assessments can help reduce time-to-hire 
because they are scored automatically and reduce the burden 
involved in administering traditional assessments.
    OPM is continuing to work to improve the applicant 
experience. This includes regular improvements to USA jobs, 
which are guided by customer feedback.
    In addition to OPM's work to help improve agencies' ability 
to execute the hiring process in a timely and efficient way, 
OPM is also working to support agency heads in meeting their 
responsibilities to establish and operate training programs for 
their employees in supervisory and leadership positions. While 
agencies are required to provide training for new supervisors 
on a specific set of topics, agencies have discretion in how 
they implement that training. It is important for each agency 
to conduct a needs assessment to determine what their workforce 
will benefit from and tailor programs to meet those needs.
    Hiring the best available talent must be a management 
priority, administered through a modern system that enables 
trained and engaged managers to fill jobs with top candidates. 
With your support, we can get there.
    OPM looks forward to working with you on these efforts. 
Thank you for the opportunity to testify, and I welcome any 
questions you have.
    Senator Lankford. Thank you. Ms. Bailey.

  TESTIMONY OF ANGELA BAILEY,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Bailey. Good morning, Chairman Lankford, Ranking Member 
Heitkamp, and distinguished Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to address 
the manager's role in hiring and our efforts to improve time-
to-hire, along with supervisor training at the Department of 
Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bailey appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    As the Chief Human Capital Officer for DHS, among some of 
my top priorities are addressing our hiring process, including 
the time it takes to hire, ensuring our managers are involved 
in the hiring process, and providing our supervisors with the 
training needed to accomplish this important role.
    The reason these priorities are so important is because our 
men and women within DHS work incredibly hard safeguarding the 
homeland. They carry out their missions with pride, courage, 
and dedication, and do so under some of the most extreme 
conditions. The least we can do is ensure we have our positions 
filled in a timely manner, equip our managers with the 
necessary tools to not only hire the right folks, but also to 
engage and encourage their workforce to help stem unplanned 
attrition.
    I take this responsibility very seriously and have made it 
my mission to uncover unnecessary steps in the hiring process, 
streamline and automate our processes and procedures, and 
identify ways, both traditional and non-traditional, to educate 
our managers in not only the basics of supervision but also 
leadership development. I am fortunate in that within DHS I 
have excellent leadership who fully support me. They have 
resourced an increase in the number of human resource 
specialists across DHS, recognizing you must have HR 
specialists on board if you are going to get any of this 
accomplished.
    That also includes investing it in HR Academy. They have 
invested in Human Resources Information Technology (HRIT) and 
hiring innovation and transformation, where I co-lead these 
efforts with the Chief Information Officer (CIO) and each 
component and line of business is a voting member on the 
executive steering committee. In other words, we are all vested 
in improving HR processes and procedures, including automation.
    And finally, to tie this all together, the leadership team, 
from top to bottom, is engaged in Leadership Year, a year in 
which we are devoting our time and energy to ensure our 
supervisors and managers have not only the basics to do their 
job but are also developed into the leaders we want and our 
employees deserve.
    At the end of the day, we do all of this so we can ensure 
our employees are able to carry out their missions, by ensuring 
we get our positions filled with quality people, where we need 
them most, and in advance of the need.
    Thank you again for supporting our employees who protect us 
and our great nation. I look forward to answering any questions 
you may have.
    Senator Lankford. Thank you. Mr. Mahoney.

  TESTIMONY OF KEVIN MAHONEY,\1\ CHIEF HUMAN CAPITAL OFFICER, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Mahoney. Good morning. I would like to thank the 
Chairman and the Ranking Member for inviting the Department of 
Commerce to share its view on this very important topic of 
management involvement in hiring and workforce planning. I 
would also like to thank my colleagues from the Office of 
Personnel Management and the Department of Homeland Security 
for their dedication to advancing effective human resource 
management in the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mahoney appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    The Department of Commerce has one overarching purpose: 
helping the American economy grow. The Department is a diverse 
agency comprised of 12 Bureaus, employing nearly 47,000 
employees domestically and internationally. The Department is 
placing an increased emphasis on the commercial opportunities 
of space exploration and aquaculture. Our scientists are 
conducting foundational research in areas ranging from 
artificial intelligence to quantum computing. Our patent 
professionals are working to improve the protection of 
intellectual property.
    The Department is enforcing trade laws to ensure trade is 
free, fair, and reciprocal. The Department is also working to 
conduct the most accurate, secure, and technologically advanced 
decennial census. Finally, Department teams are working to keep 
Americans safe by predicting extreme weather events earlier and 
deploying a nationwide broadband network that allows better 
coordination of first responders.
    With that as a backdrop, I would like to discuss four areas 
where the Department is working hard to improve: time-to-hire, 
enterprise services, maximizing employee performance, and 
workforce planning.
    With respect to time-to-hire, for fiscal year 2017 that 
just ended, the Department's time-to-hire was 105 days, clearly 
one day under the governmentwide average but well above the 80-
day model. The Department follows OPM's 80-day model and we 
track performance across all the 11 steps in the model. The 
Department has been a participant in OPM's HRStat review from 
its inception and we report those results quarterly with our 
principal human resource directors and senior management in the 
Department.
    The Department constantly monitors all the 11 steps in the 
80-day model. We require managers to check in regularly as to 
their progress, and, in some cases, ask for permission to 
extend a deadline. When a problem is identified, it is 
escalated through the appropriate management channels.
    With respect to training, training for managers and 
supervisors for hiring varies by each of our Bureaus, but each 
Bureau annually conducts mandatory training for Uniformed 
Services Employment and Reemployment Rights Act (USERRA), 
veterans' employment training, and disability hiring. Beyond 
that, the Bureaus offer a variety of courses in interviewing, 
job analysis, classification, special hiring authorities, and 
merit system principles, just to name a few. Our goal, over 
time, is to standardize training so that a consistent message 
is being given to managers and supervisors on the hiring 
process.
    We conduct training through a variety of channels, which 
include computer-based training, instructor-led training, 
subject matter experts, and informal events like brown bag 
lunches.
    I would like to turn now to enterprises services. Our 
mission-enabling services such as acquisitions, financial 
management, human resources, and information technology (IT) 
provide the underpinning on which agencies accomplish their 
mission. Over the last 2 years, the Department has worked to 
identify the transactional aspects of back office and support 
services. Our goal is to achieve economies of scale, 
standardize the process, and reduce the transactional work so 
that our mission-enabling employees can spend more time on 
strategic work with the Bureaus. To effectively manage this 
transition, the Department created the Enterprise Services 
Organization.
    With respect to employee performance, we are following the 
Office of Management and Budget (OMB) memo M-17-22, which 
requires agencies to develop a plan to maximize employee 
performance and design a workforce that meets the needs of 
today and the future. The Department is developing a plan that, 
when completed, will ensure, first, updated policies are in 
place to address poor performance; second, performance 
standards are comprehensive and ensure alignment between 
employees, qualifications, and position duties and 
responsibilities; third, performance management training exists 
to maintain high standards; and fourth, management and 
supervisory workforces are equipped and supported to execute 
performance management responsibilities.
    The first step that we took in this process was to conduct 
an inventory across all of our 12 Bureaus on the topics related 
to performance management, and as we suspected, we are doing an 
awful lot of work in this area but we are all doing it somewhat 
differently. We also surveyed nearly 7,000 managers and 
supervisors on performance management. The results of this 
survey will guide us in developing a new training program for 
performance management.
    On workforce management, the Department is committed to 
ensuring we have a long-term plan for the workforce of the 21st 
Century, and over the next 10 years the government will 
transition fully from the baby boomer generation to the 
millennial and gen X generations. Our goal is to focus on what 
people, technology, and acquisitions the Department needs to 
accomplish its various missions and identify gaps and develop a 
strategy to close them.
    Again, I want to thank you for inviting Commerce to be part 
of this important discussion and I look forward to your 
questions.
    Senator Lankford. Thank you. We are going to ask Ranking 
Member Heitkamp for opening questions.
    Senator Heitkamp. Thank you so much. Stronger supervisory 
training is something that I have advocated for since coming on 
this Committee, and I am pleased that Senator Lankford is 
working with our office and working with me to try and design a 
bipartisan bill that we can advance, for looking at supervisory 
training.
    And so I am just going to spend some time here visiting 
with you all about how the system currently grades and trains 
and works with supervisors. And rather than kind of getting 
into the proficiencies and the substantive area--which I think 
frequently supervisors have great proficiency. That is why they 
end up being supervisors. The problem is that they do not have 
the soft skills that they need to inspire teams, to inspire the 
workforce to come together and achieve results.
    So when you look at the 2017 study that Deloitte did with 
the Senior Executive Association (SEA), I was struck by their 
evaluation that only 35 percent of career senior executives 
that responded felt that career senior leaders were selected 
because of their ability to inspire teams.
    I am wondering how these soft skills, these kind of 
interpersonal skills that are hard to quantify in a multiple 
choice test, how do you evaluate those soft skills? How do you 
evaluate a supervisor's ability to inspire teams and achieve 
results and create a positive workforce, with high morale?
    And so maybe we could start with you, Angela. We know that 
DHS has, over the years, gotten beat up pretty bad for low 
morale, and I know how hard you have been working. We are 
grateful that you have taken on this challenge, and we will 
talk a little bit more about that as we get another chance 
here.
    And so I am wondering, when you look at supervisory 
training and you look at supervisory evaluation, how do you 
deal with this intangible that I am talking about?
    Ms. Bailey. I think that is a great question and it is 
almost like the age of time that we have been dealing with 
this, right? And over the course of the years, I think it is 
absolutely true that what we have done is we have promoted 
folks based on their technical skills, and I think we have put 
this whole idea of soft skills as being something on a side 
burner.
    But it really has come to light, and I think within DHS, 
with our Federal Employee Viewpoint Survey (FEVS), and looking 
at this and really examining it, we really said to ourselves, 
look, I think one of the things we really need to focus in on 
is these particular skills.
    And so one of the things that we did, we started listening 
tours, and it started with Secretary Kelly, and then Deputy 
Secretary Duke, and then our current Secretary as well, myself, 
our Deputy Under Secretary for Management. You name it. We go 
out and we actually hold listening tours.
    Senator Heitkamp. With who?
    Ms. Bailey. Not only with the employees but with the 
supervisors as well.
    Senator Heitkamp. OK.
    Ms. Bailey. And to really sit down and understand, at the 
ground level, what is it that they are really dealing with? 
What are the struggles that they are having? How can we help 
them, and prepare them to be able to deal with some of the 
things that they are facing on a daily basis? Because I do not 
think anybody wakes up in the morning and says, ``I think I am 
going to go in and just be a real jerk to my employees.'' I 
think, instead, they are struggling to be both the supervisor 
that we want them to be, and then also try to carry out their 
technical responsibilities at the same time.
    And so this year of leadership that we have created I think 
is an excellent opportunity. We are not only giving them the 
skills that help them be able to understand how to recruit 
better, understanding our hiring authorities, understanding how 
to have a difficult conversation, understanding how to take 
those actions that ultimately, at the end of the day, they may 
have to take that is pretty darn tough.
    But then we also intersperse that with actual leadership 
development as well. Just next week, in fact, we are having a 
Women in Leadership panel, where, myself, I serve on the panel 
along with some other folks, to really have a conversation with 
not only our supervisors but our employees as well, with regard 
to what it is like to be a woman in a leadership position. What 
are some of the things that we bring to the table that might be 
different from our male counterparts and how do we, in essence 
lead from where we are, regardless of whether we have the 
supervisor moniker or not.
    And so we have also introduced some things that are kind of 
non-traditional. Just this week, in fact, we pulled all of our 
Senior Executive Service (SES) within the Management 
Directorate, so it was over 60 of us, into a conversation 
around Henry the Fifth, and what he went through with regard to 
inspiring his troops, and how to go ahead and, get England to 
be able to win a battle within France. And you may say, ``Well, 
what the heck does that have to do with real employee 
engagement?'' But to a person, every SES walked out of there 
and said, ``I just learned something. I learned something about 
myself. I learned something about what I gravitate to. I 
learned something about how to inspire folks, to get them to 
actually be motivated and want to do the job that we need them 
to do.''
    Senator Heitkamp. So how do you--Angela, though, I mean, 
doing all those things----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. And getting people to think 
different about their role as----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. Not just supervisors but 
leaders----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. How do you then evaluate 
that? How do you, I think a lot of times----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. People see it coming, OK, 
now I get it, and then slide back to what is familiar.
    Ms. Bailey. Right. Exactly. So one of the things we have 
started to do is the FEVS is great but it is a once-a-year 
annual survey. By the time we get it, it is almost time to take 
it all over again. So we have started doing poll surveys, where 
we actually send out, to the groups, and just a few questions. 
We do not make it burdensome on them.
    But we send out these little poll surveys to say, hey, we 
had this kind of training. Did it really have an impact? Did 
you notice that the communications actually improved? Did you 
notice that your supervisor seemed to be a little bit more 
interested in how your day was going and not just simply 
telling you where to head for the next shift? And then we use 
that to evaluate whether or not that kind of training or that 
kind of educational experience was really even having any 
impact that we wanted to.
    So we do not want to get stuck on just doing something for 
the sake of doing it--because that is how it has always been 
done. Instead, I think, what we are doing is seeing this as 
being very fluid. Nothing is etched in stone. If it did not 
work then we will try something different.
    Senator Heitkamp. Well, I am curious because as we look at 
supervisory training and this challenge that we have between 
the tangible and the intangible--and I really see a lot of 
these traits as intangible----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. And difficult to apply 
baseline metrics, but you know it when you see it, kind of 
thing.
    Ms. Bailey. Right.
    Senator Heitkamp. What advice can you give to us, in terms 
of our supervisory role, our oversight role, on building better 
leadership and better supervision?
    Ms. Bailey. Sometimes it is like we struggle between this 
line of legislating behavior, right, versus, like, how do we 
ensure that we have the kinds of resources that we need, 
dedicated, quite frankly, to these kinds of programs. Sometimes 
what happens, I think, is that when cuts need to come for 
resourcing and stuff, one of the first things that we have a 
tendency to cut would be training programs. At least that has 
been my experience throughout my entire career.
    And I think the military often says that you train the way 
you fight and you fight the way you train. And I think that we, 
in the civilian agencies, need to have that same kind of 
mindset, where training is something that is absolutely seen as 
a crucial part of what we do.
    Senator Heitkamp. Yes. I do not think you can have culture 
change without training.
    Ms. Bailey. Correct.
    Senator Heitkamp. I think that is the lesson from the 
military----
    Ms. Bailey. Exactly.
    Senator Heitkamp [continuing]. That when you train together 
and when you train with a common purpose you achieve culture 
change----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. Within organizations. And I 
think, in many cases, as we look at the challenges going 
forward, that culture change, especially at DHS----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. Number one, we need to 
appreciate them more for what they do.
    Ms. Bailey. Yes.
    Senator Heitkamp. But I think that we have a big job----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. That has been ignored for 15 
years. I know you are celebrating 15 years of the agency. We 
just were talking about authorization for DHS----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. Very difficult to get kind 
of a sense of prioritization from Congress when you have 100 
committees----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. Telling you what to do----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. And coming at you, and 
mostly critical.
    And so, I mean, I think we do not want to just bring out 
the stick. We want to know what that carrot is, and we want to 
work with you, Angela. But I think you are kind of a case study 
for me in supervisory training, and that is why I think it is 
interesting what you are doing.
    Ms. Bailey. Thank you.
    Senator Lankford. Can I press on that a little bit as well? 
You mentioned, in your testimony, about an HR Academy. Tell us 
a little bit about that.
    Ms. Bailey. Sure.
    Senator Lankford. What is that?
    Ms. Bailey. Well, one of the things, whenever I first came 
on board at DHS and I had the opportunity to work with our 
Deputy Under Secretary at the time--well, he is still there--
Chip Fulghum, first of all, he is just a really incredibly 
strong supporter of the programs that we have within HR. And 
one of the things we recognized is, number one, we needed the 
resources. So we went after that, meaning get HR specialists on 
board.
    But then, number two, we said to ourselves, but once they 
are on board, and to include the current folks, by the way--
they really need to have career paths so that they understand 
how their career is going to be progressing. They need to 
understand that they are part of a really noble profession and 
it is not just this one-off thing that anybody can do, which 
often is what happens with the HR field.
    And so we created this idea of having an HR Academy, and 
what we mean by that is, first of all, we are using the good 
work that OPM is doing with their Human Resource Institute, and 
we are taking all of those courses. So it will be heavily 
influenced by the courses that OPM is doing.
    But we decided that we are actually going to do this by 
DHS, for DHS. And I need to tell you, I was actually at 
Transportation Security Administration (TSA). When I said that 
to the HR community they actually clapped about that, which 
really send a message to me to say that they are just clamoring 
to be a part of a profession and to have somebody--to know that 
there is a career path for them, to know that we are going to 
have coaching for them, that we are going to have rotational 
experiences for them, that we are going to make sure that they 
get joint duty kinds of experiences, that they are going to get 
not only the traditional but the non-traditional kind of 
education and training as well, to go in this whole package 
called an HR Academy.
    So it is not brick and mortar. Right now, it is a virtual 
thing. It is being done on the backs of--internally, within the 
Office of the CHCO, and just some excellent detailees that have 
come in from the components. They are so excited about building 
something for their own community.
    Senator Lankford. So what is the model for this? You are 
modeling it off of what? You are making it look like, or you 
have seen it somewhere else and said, ``That seems to really 
work,'' or are you starting from scratch?
    Ms. Bailey. I think the model, really, for me, because 
coming out of Defense, I would say that the model for me is 
really when you look at the acquisition corps. And so the 
acquisition corps really professionalized themselves. They have 
career paths that they have built that are very clearly 
defined. They have intermixed it with Defense Acquisition 
Workforce Improvement Act (DAWIA) requirements and Defense 
Acquisition University (DAU). And so that all just kind of 
played in my head.
    I also, of course, coming out of OPM, you have Joseph 
Kennedy's group that does all of the HR training, Federal 
Executive Institute (FEI) and stuff. So it is this 
conglomeration of pooling together just probably 36 years of, 
like, watching different things go on, and kind of pool it 
together but say, what is in the best interest for DHS, right? 
It cannot be the DAU model, that is necessarily acquisition and 
that is specifically for Defense. I do not think it is 
necessarily just the OPM model. I think it is what is in the 
best interest of us.
    Senator Lankford. So how do you measure it? Look out 5 
years from now, as you are looking back at it. Is it working? 
Not working? What are you going to look for?
    Ms. Bailey. Well, that is a great question. I would think 
that the way that we are--and we have not really defined yet, 
completely, how we are going to measure everything. But I think 
at the end of the day the outcomes has to be that we have a 
professionalized HR workforce that understands the nuances of 
the hiring authorities, that understands all the different 
things that they need to do to be able to deliver to the hiring 
managers and help coach those hiring managers through some of 
this as well.
    And it has become a partnership, actually, with the hiring 
managers, to be able to deliver and fill our positions, stem 
some of the unplanned attrition, do all the things that are 
actually the outcome of all of this, is not just for the HR 
community but the outcome is that the mission for DHS is 
actually delivered in a better fashion--more efficient and 
certainly more effective.
    Senator Lankford. Yes. Mr. Reinhold, who else is doing a 
model like this? What are your initial thoughts on it?
    Mr. Reinhold. Well, so I can tell you that OPM has invested 
a lot of effort in looking at the HR workforce. We have done 
extensive work over the past few years, because this is 
identified as one of the governmentwide, mission-critical 
skills gap.
    So we have put our best talent on it. We have a set of 
professional psychologists that have done extensive competency 
analysis, to really hone in on what are the key competencies 
and skills required of an HR specialist, and we have worked 
very closely with our colleagues in our HR Solutions Division 
to now build a curriculum that reflects those competencies.
    And as Angie mentioned, it is through our Federal Human 
Resources Institute--this year we have begun to launch this 
institute, starting with the staffing function, because we have 
found that that is a critical pain point across government. We 
have a 22-course curriculum that includes both technical 
training and the soft skill training. So far, about 18 of those 
courses have been launched, and the remaining 4 will be live by 
the end of this fiscal year. And then moving into 2019, we are 
looking at building additional curricula for the other 
specialty areas within the HR discipline--performance 
management, benefits administration.
    And one of the things that we believe in is that as Angie 
mentioned, there is a huge appetite for this out in the Federal 
Government, and depending on where you go for your training it 
is going to be better or not as good. But what we have found is 
that there is a huge appetite for OPM to establish some 
leadership here, or take some leadership here, and I think we 
have done that. And by having a robust set of courses and 
curricula, that has the Good Housekeeping seal of approval on 
it, from OPM, we believe will pay off in the long run.
    Senator Lankford. So let me just bring this up, then I am 
going to go to Senator Daines for his questions as well. But 
this is my concern, because I want to go back to what else 
needs to change. As we have all talked about before, it if is 
106 days to hiring right now, you are not going to achieve it 
by finding one area to be able to cut and change. You are 
probably going to define five areas that you are going to cut 3 
or 4 days off of each, to be able to get down to, as Mr. 
Mahoney mentioned, this 80-day model, and trying to figure out 
how to be able to get there.
    But I had my team just pull the last 10 years, just grab 
the last 10 years, some of the initiatives. So in 2008, the 
End-to-End Hiring Roadmap initiative. In 2010, the President's 
Hiring Reform piece. Also in 2010, the Veterans Finding Federal 
Jobs piece. In 2011, OPM had the Students Finding Federal Jobs. 
In 2015, the Recruitment, Engagement, Diversity, and Inclusion 
strategy to improve the hiring process. In 2016, the Hiring 
Excellence Campaign (HEC).
    This is not to be critical. This is something we have all 
known about for a while and there is a little piece edit, and I 
hope we are making progress on it, a little bit at a time, to 
be able to chip away on it. Not every program is going to be a 
success. Some we are going to try it and it is not going to 
work.
    What I am trying to figure out is, for the HR folks that 
are out there that are trying to figure out what do we do, how 
can the process get better, how can I get greater connection to 
the people that are actually my customers, which piece of it do 
you look at over the last 10 years and say, ``That has made the 
greatest progress on it but this is what is still missing?''
    Mr. Reinhold. Yes. So that is a fair point about the number 
of initiatives that are rolled out.
    I will say that one of the things that we see is that with 
every initiative comes visibility and prioritization, and I 
think that as you look at each of these initiatives there are 
things that you can point to say, ``Oh, wow, that did drive 
some visibility and attention to it.''
    For example, the time-to-hire and hiring model. The initial 
results were that agencies got on board and they drove down 
time-to-hire. I think one of the things that we found, though, 
is that it is not just about speed of hiring. It is also about 
quality of hiring. And I think, this all kind of works on a 
model of continuous improvement, where if we squeeze the 
balloon here and focus on speed of hiring and that is all we 
care about, then the balloon bulges somewhere else.
    So that is one of the reasons why you will see some of this 
evolution of the thinking and, for example, a focus on quality 
of hire, and, some of the things that OPM had engaged in to 
really drive things that contribute to quality, like engagement 
of hiring managers, and collaboration with HR.
    One of the things that we have found in a lot of our data 
was that supervisors and HR people do not talk to each other, 
and that is not going to lead to a great hiring outcome. So 
that is one of the reasons why we began to work with agencies 
to really drive home the idea that collaboration between HR and 
hiring managers is important, and that was reflected in our 
Hiring Excellence initiative.
    So, again, I think, in sum, I think it is kind of a 
continuum or a range of continuous improvement that there is 
not one perfect solution.
    Senator Lankford. No, there is not, and we will come back 
to that. I want to be able to drill down on a couple of things 
specifically on that as well. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman, and I want to 
thank you all for testifying before this Committee.
    President Trump began his term by emphasizing the 
government needs to provide better customer service. I could 
not agree more. In fact, I tell my team oftentimes that we are 
in the customer service business. I spent 28 years in the 
private sector before coming to Capitol Hill. We need to 
provide better customer service to the American people. One of 
the best ways to bring about better customer service is to 
start by hiring, certainly, better employees.
    The President also recognized, in the State of the Union 
address, that hiring good employees also means you need to fire 
bad ones, and particularly in places like the U.S. Department 
of Veterans Affairs (VA). When I was leading organizations for 
Procter and Gamble (P&G) for 13 years, in fact, my first job at 
the age of 21 years old at P&G, I was managing a team of 30 
people right out of college. They had a management development 
program. They said, ``Steve, here is a team of 30 people. Go 
get them.'' I was 21. So you learn a lot by trial and error.
    But later on in my career, when I would teach and train new 
managers and more experienced managers about what is the most 
important thing about management, I would say the three most 
important things about management, your highest priorities, 
number one is hiring, number two is hiring, number three is 
hiring, because when you hire well, it makes all the difference 
in terms of outcomes in organizations.
    But with an average time-to-hire, as was noted, of 106 days 
in fiscal year 2017, we know the agencies are not getting as 
many good candidates as they could, and we see this because 
your best candidates cannot stand to wait when there are easier 
job offers elsewhere. Your mediocre candidates and your lower-
performing candidates, which we should not be trying to hire in 
the first place, but they will be the first ones to hang out 
for 106 days, because they have no other options. The best 
people have three or four options, and, to me, we are never 
going to be able to hire and retain the best people unless we 
can shorten up this time-to-hire.
    Mr. Reinhold, the objective of successful hiring is 
certainly having a good, or I would even argue a great 
workforce. Taking this good to great analogy, we used to be 
required reading in organizations I used to manage, part of 
having a good workforce is to expeditiously fire bad employees, 
because when you do not do that, as we know, it demoralizes 
your best people when you see that bad performers are not held 
accountable.
    We recently saw the Department of Interior, our Secretary, 
Ryan Zinke, take necessary steps by terminating four senior 
employees on the basis of workplace harassment, including 
sexual harassment.
    My question is, what are the barriers to firing employees 
who are poorly performing or have engaged in misconduct?
    Mr. Reinhold. Thank you for that question. So I think there 
are several. I think you could point to some of the, I will 
call them provisions or constraints of the system, where we 
need to take a fresh look at the basic rules and laws and 
regulations that govern how we do performance management and 
accountability.
    I think another piece of that, though, even without 
substantive reform, is figuring out how we execute better, 
making sure that managers are held accountable for being 
managers, and taking appropriate actions when there are--when 
there is misconduct or poor performance.
    Senator Daines. What incentive is there in the system to 
fire a poor-performing employee, if you are a manager in this 
system?
    Mr. Reinhold. Well, for me the incentive--I mean, I guess 
from my personal experience the incentive is it helps my 
overall organizational performance. So I may not get a bonus or 
accolades for it, but at the end of the day other employees 
notice this.
    Senator Daines. Do they stack rank performance in our----
    Mr. Reinhold. No, we do not.
    Senator Daines. And why not?
    Mr. Reinhold. Actually it is a current provision of law 
that requires an objective assessment of an individual's 
performance against their performance standards. So we are not 
rated against each other but we are rated against a set of 
performance requirements.
    Senator Daines. Yes, and that really is a controversial 
issue, but I tell you, I have found one of the best 
guidelines--and it is a guideline--is you ask your manager to 
stack rank your employees, because what you often find out is 
you are negotiating on the standards half the time with the 
employee and so they get into this back-and-forth.
    If you have an organization of 100 people, put them in 
relatively populated groups here of peers, you stack rank them. 
Tell me who your top 20 percent are, your middle 70, and your 
bottom 10. It is a telling exercise, and if we cannot do it 
officially, we still out to do it unofficially, just to make 
your managers think about their organization, because your top 
20 percent deliver a disproportionate share of results. 
Typically your top 20 percent is delivering half the results of 
the organization, your bottom 10 percent is taking up half of 
your time as a leader because you are coaching out and having 
to deal with poor performance. Just a comment on how we could 
make this place run a little better.
    Can this Subcommittee count on OPM to quickly finalize 
guidance in order to prevent abuse and improve the government 
workforce so that better employees can be hired?
    Mr. Reinhold. Yes, absolutely. I mean, as others have 
noted, this administration has made it clear that performance 
management and accountability is a priority. One of the early 
things that was issued was the memo directing agencies to 
maximize employee performance. And OPM fully supports that and 
we are looking at ways that we can help advance the ball on 
that.
    Senator Daines. I just would ask, too, and it is--I realize 
maybe we have--I do not know if there are rules or regulations, 
but I would just challenge our leaders, managers across these 
organizations to think about, at least as an exercise, doing a 
stack ranking. And, what you do with the data is all the 
difference. I realize there are pros and cons to it. I have 
found it to be very instructive and informative in coaching 
young managers to success and to have the manager tell you what 
are you doing to make sure we really help those top 20 percent, 
to promote them, pay them more, encourage them, and what are we 
doing to manage the bottom 10 percent? But that is just a 
comment.
    Ms. Bailey, the Port of Sweetgrass has about 40 employees 
in a given time. This is up in northern Montana, up near the 
Canadian border. The entire town has a population of 50. Just 
south of there, 7 miles, the town of Sunburst has a population 
of 400, and 35 miles further south is Shelby. I was in Shelby, 
Montana, last week. They have a population of 2,400.
    The U.S. Customs and Border Protection (CBP) employees 
there have relayed to me that hiring retention is poor because 
it is difficult to hire locally. And, as a result, we will send 
folks up to the Sweetgrass Port with CBP as a way to get into 
the agency and then immediately they leave Sweetgrass. We have 
found when you hire more Montanans locally, and not 
disadvantage them in the hiring process, we get better 
retention rates.
    A question for you is, do you believe that hiring locally 
can reduce turnover and increase morale?
    Ms. Bailey. Yes. I think, fundamentally, that yes, hiring 
locally does, in essence, keep the morale high. It also helps 
us retain folks in a much better way, because most of the--once 
you get out into the field areas a lot of the hires are local. 
Sometimes we are not able, to your point, to be able to fill 
all of our vacancies with local hires. But we also have to, I 
think, balance that with you cannot all have all locals either, 
right?
    Senator Daines. Right.
    Ms. Bailey. I think an infusion of folks from diverse 
backgrounds and stuff into an area is good, because, in the 
areas in which we are responsible for, I think we really need 
to be representative of all America. And so I think we just 
have to have a good balance.
    Senator Daines. I am out of time. I would love to have a 
conversation and go further. Mr. Chairman, thank you.
    Senator Lankford. Thank you. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman.
    Mr. Reinhold, talk with me a little bit about how you are 
using data to inform the Federal hiring process, and, in 
particular, how you are providing data to hiring managers and 
agency leaders, and how are these managers being trained to use 
that data?
    Mr. Reinhold. Thank you for that question, Senator Harris.
    So I think there are a number of important data sources 
that OPM encourages agencies to use. One of the big ones is 
data gathered from the Federal Employee Viewpoint Survey. Not a 
perfect assessment or, a perfect measure, but there is a lot of 
rich data in there that we are driving into the agencies by 
producing unit-level results down to low-level work units. So 
each supervisor can get their data and have an understanding of 
how their employees are reacting to the items in the survey.
    Beyond that, when we look more broadly at recruiting and 
hiring, one of the things that OPM has really worked toward is 
creating functionality, sources of data that agencies can use 
to inform hiring. And whether that be informing pools of 
applicants by using what we call applicant flow data, where we 
can survey individuals to find out where they are coming from 
and how they found out about the jobs; by taking data that we 
have in USA Jobs on millions of registrants and seeing where 
they are located in the country and what kinds of jobs are they 
applying for, and where are they actually getting selected.
    So there is a whole suite of data analytics tools that are 
being created within USA Jobs to enable better strategic 
recruitment. We do not want to spend time focusing our efforts 
on recruiting from places that are not yielding top talent, or 
we are finding that there might be better sources of hiring 
more diverse talent.
    Senator Harris. Do we have a timeline for when that will be 
completed, and are we also instructing managers and those who 
are in a position to hire, about which sources of data they 
should consult, and creating protocols for that?
    Mr. Reinhold. So I would have to circle back with you on 
that. USA Jobs is not actually my portfolio but I know they 
have done a tremendous amount of work to create kind of that 
analytics foundation.
    Senator Harris. OK. If you could follow up on the timeline 
for when that will be complete. And also, what, if any, 
commitment or plan is there to have open data, meaning allowing 
the public to actually be able to have access to this 
information so they, too, can understand and even evaluate the 
data that is available, to give some idea of what we are doing 
in terms of hiring practices in the United States government?
    Mr. Reinhold. That is a great question. I am not sure I 
have a great answer for it. I know clearly there is an interest 
in looking at how we can leverage the enormous amounts of data 
that we have at OPM, and it is data about current Federal 
employees, it is data about applicants from USA Jobs, it is 
Federal Employee Viewpoint Survey data. And there are many 
ways, as you know, that this can be used and leveraged, and 
even to help further some of our objectives when it comes to, 
how do we showcase things that might be attractive to people 
who might be looking for employment.
    So, yes, we do not have a specific timeline, but I know, as 
a general commitment and a general strategy, this is something 
OPM is really interested in.
    Senator Harris. If you could follow up with the Committee 
on what exactly the plan will be, or might be, or can be----
    Mr. Reinhold. OK.
    Senator Harris [continuing]. For an open data initiative, 
again, so that the public can have this information and we can 
have greater transparency in our processes.
    Ms. Bailey, in your testimony, you state that reducing 
time-to-hire and hiring is most important, and also that given 
that one of the first goals of the administration was for DHS 
to have and hire 10,000 more Immigration and Customs 
Enforcement (ICE) agents and 5,000 more Border Patrol agents. 
Is there a workforce modeling that has been done to evaluate 
and justify such as massive increase in personnel in those two 
areas of the agency?
    Ms. Bailey. Yes, and actually what they have done with the 
workforce modeling is, what we are doing is refining that. And 
so it is also built on, with regard to our authorizations and 
what are our appropriations, and what we can actually afford 
each year as well.
    So we are not hiring all 10,000 ICE agents this year or all 
5,000 CBP officers this year as well. We have actually parsed 
that out. Some of that is a 5- to 7-year plan to have those 
folks on board.
    One of the things that we are doing, first of all, though, 
is investing in what I will call the logistical tail that has 
to actually support all of these folks. So the last thing we 
want to do is bring on a lot of agents and not have anybody 
there to help do all the care and feeding.
    Senator Harris. That is smart.
    Ms. Bailey. Yes. So we are----
    Senator Harris. Can you provide that workforce modeling\1\ 
to the Committee?
---------------------------------------------------------------------------
    \1\ The clarification statement submitted by Ms. Bailey appears in 
the Appendix on page 57.
---------------------------------------------------------------------------
    Ms. Bailey. We can. Certainly.
    Senator Harris. OK. Please do. Can you get it to us within 
the next month?
    Ms. Bailey. Yes.
    Senator Harris. OK. Great. And has there been an assessment 
that justifies the need for these increases, and where 
individuals would be placed, and what their duties would be, 
and what their priorities would be?
    Ms. Bailey. Right. So that would be all part of the 
modeling.
    Senator Harris. OK.
    Ms. Bailey. It is to really fully understand at where 
exactly do we need the resources most.
    Senator Harris. So that assessment has been done?
    Ms. Bailey. Yes. It is an ongoing assessment. I want to be 
clear about that.
    Senator Harris. OK.
    Ms. Bailey. I think every time, as we move and as things 
are going along, it is very fluid, and understanding what that 
is, where do we have the need for the most impact. And so we 
are actually making those plans as we go along. I do not think 
it is just a once-and-done kind of thing. I want to make sure I 
am clear on that.
    Senator Harris. So, I think so, but I just want to get more 
clear about the plan.
    Ms. Bailey. Yes.
    Senator Harris. So we are not going to build this thing as 
we are flying it, right? You are going to complete the 
assessment before we start hiring, or are you saying that 
hiring will start before the assessment is complete?
    Ms. Bailey. No. An assessment has been done. What I mean is 
that tweaks will be done to that assessment as we go along. So 
we are not going to build it as we are flying. We have an 
assessment as to where we believe that we need our folks to be 
placed----
    Senator Harris. OK.
    Ms. Bailey [continuing]. Throughout the country. Actually, 
throughout the world, because it is not just the United States. 
But what I am suggesting is that as we get our appropriations, 
as we get different intelligence and different things that we 
discover, yes, there will have to be tweaks made to that plan 
to ensure that our modeling makes sense. We would never want to 
say what we decided in 2017 is forever more, because it is just 
not a reality of the business that we are in.
    Senator Harris. OK. So we have completed an assessment of 
the needs of the Department and whether we actually do need 
10,000 in one division and 5,000 more in another?
    Ms. Bailey. To the best of my knowledge, we have completed 
an assessment of that and we are implementing that plan.
    Senator Harris. OK. Well, we look forward to reading that. 
Thank you.
    Senator Lankford. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I want to say to the Chair and the Ranking 
Member, thank you for holding this hearing. It is not a new 
subject. This is like an ongoing subject and a number of our 
colleagues, including George Voinovich, Daniel Akaka, and 
others before them have tried to focus and refocus our efforts 
here. The folks at this table have been a part of this effort.
    I just want to start out with Angela Bailey. Nice to see 
you. And thank you. I am going to be talking on the phone later 
today with Alejandro Mayorkas, who used to be, as you know, 
Deputy Secretary for a number of years, working with Jeh 
Johnson, our Secretary. And they spent every week of the time 
they were Secretary and Deputy Secretary focusing on this 
issue. Jeh Johnson said to me, repeatedly, it is an 
embarrassment that the Department of Homeland Security has the 
lowest, in terms of employee morale, the lowest in the Federal 
Government. We want to do something about that.
    And they worked it hard. They worked it hard and I try to 
do a little bit. I would go to the floor every month, as you 
may recall, to talk about a different person in Department of 
Homeland Security, and hold them up for praise, and just remind 
people. Every time I go through an airport I always thank the 
Transportation Security Administration people, tell them who I 
am and how much we appreciate their service. I just do not 
think you can thank people enough.
    And the work that you are a part of and the work that Jeh 
Johnson and Alejandro and others have led, it is showing 
movement and change. We have a saying in the Navy, it is hard 
to turn an aircraft carrier, but if you keep at it you can 
actually turn an aircraft carrier.
    And just talk to us about some of the efforts. Why do you 
think this is working? We are now seeing the fruits of all the 
labor that have gone on before. But what has happened here?
    Ms. Bailey. Well, first of all, I want to thank you, 
Senator, for all of your support, and I think it really 
actually does mean a lot to, like, our TSA folks whenever you 
thank them for a job well done, because they have some pretty 
tough jobs.
    Senator Carper. One guy said to me, ``Well, thank you very 
much. No one ever thanks us for anything. Now take your shoes 
off.'' [Laughter.]
    He was kidding.
    Ms. Bailey. Exactly.
    Senator Carper. A TSA agent with a sense of humor.
    Ms. Bailey. Yes. And there are many of them.
    Senator Carper. Yes, there are.
    Ms. Bailey. So you are right. Under the leadership of 
Secretary Johnson and Deputy Secretary Mayorkas, there was just 
so much tremendous effort put on employee engagement, and that 
has carried forward into the next administration with our----
    Senator Carper. Good.
    Ms. Bailey [continuing]. Current leadership as well.
    I think one of the main things that we honestly have done 
is just got real and got local, because all engagement is 
local, and if you try to keep it at the highest levels all the 
time, and it is big, fancy brochures and, spiffy Web pages and 
stuff, it does not resonate with the folks. So we took it to 
the people and we said to them--we sat down, we started having, 
and I had mentioned it earlier, listening tours, to ask them, 
``What is it that you are struggling the most with? What is it 
that you need our help with?''
    And so we then kept a record, basically, of all of those 
things, and then we just started actually making sure that the 
simplest things got implemented for them.
    One of the things that also was borne out of this is the 
idea of leadership year, and that really came with Secretary 
Kelly. Whenever he went out and he listened to folks and they 
said, especially the supervisors, they said, ``What I really 
want to know is that I am going to be supported whenever I need 
to take whatever action I need to take.''
    And so we really are now dedicating this whole year to 
making sure that our supervisors have what they need, because 
we fundamentally believe if we do not take care of our 
supervisors, it is pretty darn hard to take care of your 
employees if you are not taking care of yourself. And so that 
is one of the two-pronged efforts that we have with regard to 
our employee engagement.
    And as you can see, the results are--I mean, last year, I 
think, not only was it statistically significant, historically 
it was the highest raising of an agency with regard to the FEVS 
scores. But for us it is not just about FEVS scores, right? We 
are not just chasing a score. We are really actually trying to 
learn from that.
    We have an executive steering committee that is actually 
chaired by our Under Secretary for Management.
    Senator Carper. Who is that now?
    Ms. Bailey. That is Claire Grady. And all of our component 
leadership is there. We have action plans that we have put in 
place. We hold them accountable for the action plans. We have 
put it into our SES performance appraisal, or into their 
performance standards, this idea of having accountability for 
leadership, which goes beyond just the core competency of 
leading people. And then we share best practices, and there are 
a lot of good things that are actually going on.
    I think some of the things we do not really kind of get 
credit for is some of our components, like U.S. Citizenship and 
Immigration Services (USCIS), and U.S. Coast Guard (USCG), they 
have scores almost as high as National Aeronautics and Space 
Administration (NASA), and they are larger than NASA. And so I 
think sometimes that gets missed in all the mix of just 
aggregating DHS as just one agency.
    Senator Carper. Good. Well, we do a fair amount of work 
with social media and other ways to communicate out of our 
office, and we are going to make sure we tell this story. Thank 
you very much for your part in developing a really good 
turnaround. It is thrilling.
    Ms. Bailey. Good.
    Senator Carper. It is a thrill, and not a cheap thrill. It 
is a thrill. Good work.
    Ms. Bailey. It is for me.
    Senator Carper. There you go.
    If I can, maybe one more quick question. This would be for 
the panel, the entire panel. We will let the guys talk for a 
little bit here.
    But the Government Accountability Office (GAO) and others 
have identified the critical skill gaps in areas such as 
cybersecurity, auditing, human resources, and procurement, to 
name just a few. The two of you just take a minute and tell us 
how you are working to ensure that individual hiring decisions 
are in line with the long-term needs of your agency, including 
tackling those areas identified as critical skill gaps. Each of 
you. Mark, do you want to take it first, and then Kevin.
    Mr. Reinhold. Sure. Thank you for that question, Senator.
    So I would actually like to start off by talking a little 
bit about some of the work OPM has done to explore the skills 
gap in mission-critical occupations. We have worked very 
closely with agencies to, first of all, identify what we mean 
by a mission-critical occupation, the extent to which skill 
gaps exist, going through a very rigorous root cause analysis 
process to get to the fundamental reasons why these gaps exist 
in government. And based on those findings there are action 
plans and strategic plans that have been put in place for each 
of the mission-critical occupations.
    And we have occupational leads who are basically senior 
folks from agencies who have stepped up to the challenge of 
saying, ``Hey, I want to lead the acquisition efforts, or the 
cyber efforts.'' And we continue to work very closely with them 
to kind of drive execution of their action plans. In fact, just 
later this afternoon we are having our quarterly update with 
the group to talk about status and progress.
    Senator Carper. That is great. Thank you, Mark. Kevin.
    Mr. Mahoney. Thank you, Senator. At Commerce we are really 
working to identify competencies in a lot of these areas. We 
have tracked mission-critical occupations for a long time and 
report them to OPM on a regular basis.
    But as we make a transition to how we are delivering HR 
services, we know that we have to understand what the 
competencies in each of these jobs are, and that is a joint 
effort between us in HR and the manager, to sit down and really 
sort of assess what are the skill sets that you need to 
complete your mission. And we are beginning to develop a model, 
a workforce planning model, that will look at those 
competencies and then be able to make some decisions on how we 
close gaps.
    In my own department, we have done this because we are 
preparing to transition to a different way of delivering 
services, and we did a complete competency assessment of the 
staff and we have identified staff who can fill certain 
positions for us and staff that needs to be developed if we are 
going to retain them. And we are going to continue on that 
model throughout the agency.
    Senator Carper. OK. Good. Who is the Secretary of Commerce 
these days?
    Mr. Mahoney. Wilbur Ross.
    Senator Carper. Really? Everybody thinks he is the guy who 
made a lot of money, very successful businessperson. Did he 
ever work in public service for like a limited period of time?
    Mr. Mahoney. Actually, when Secretary Ross started his 
career he was a Census taker.
    Senator Carper. He was a kind of a numerator. He would go 
door to door and take the Census.
    Mr. Mahoney. Yes.
    Senator Carper. And he still has an enduring interest in 
the Census. And as part of the responsibility of the Department 
of Commerce, it is a really important thing, not just for 
creating congressional districts and, councilmanic districts 
and stuff like that for voting purposes, but it is also hugely 
helpful to our business community, hugely helpful in a wide 
variety of ways.
    We currently have an acting Census Director, an acting 
Deputy Census Director, both of whom are career folks and both 
of whom are highly regarded. Is the administration--are you 
guys working on putting somebody like a confirmed--getting us a 
couple of names for us to consider? Do you want to stay with 
the two fellows that are there? Should we be considering them 
as the Senate confirmed, debate them, have them here before us 
for hearings? What should we do?
    Mr. Mahoney. Well, I know that the Department is actively 
working with the White House to identify candidates to come in 
and fill those positions. The two gentlemen that you have 
identified certainly have stepped up and done yeoman work----
    Senator Carper. That is what I hear.
    Mr. Mahoney [continuing]. And we are very pleased with the 
progress that we are making with the Census. But, ultimately, I 
think we will be getting some recommendations from the White 
House that we will move forward on.
    Senator Carper. Maybe one or both of them could be a 
nominee, or ought to be seriously considered, at least.
    OK, Mr. Chairman, Senator Heitkamp, I just want to say 
thank you for your leadership of this Committee. I love the way 
these two folks work together. It is just a great example for 
the rest of us. Maybe it is their hair color. I do not know 
what it is. These are kindred spirits and very good leaders.
    Thank you for your leadership in this regard, and to 
Angela, especially, nice to see you. When I talk to Alejandro 
and Jeh Johnson later this week, maybe later today, I will be 
sure to tell them we spoke and that you are doing great work. 
Thank you.
    Ms. Bailey. Thank you.
    Senator Lankford. Thank you, Senator Carper. Let me ask a 
couple more questions. We have several things that we want to 
be able to still highlight with you, and this is one that has 
confounded me in the process. The final approval for a 
position's minimum job requirements. Who signs off on that and 
who should sign off on it?
    So I am asking what is current practice for who is signing 
off on the final approval for a position's minimum job 
requirements. Is it in the right spot? Is it OPM? Is it HR 
folks? Is it down to the manager? When they are trying to 
establish what is the minimum job requirements for this one, 
how is that going?
    Mr. Reinhold, do you want to attack that for me?
    Mr. Reinhold. Yes, I would be happy to start with that. So, 
generally speaking, for most occupations, the core 
qualification requirement for a particular grade level is a 
full year of experience doing that job at the next lower grade 
level. So OPM does not prescribe, in specific terms, what that 
means, so there is a lot of flexibility within agencies to say, 
OK, well, what it means for my job here in my agency is that 
you would have a year of experience doing X, Y, and Z, and you 
would have demonstrated these competencies and skills.
    So, ultimately, when it comes to actually defining a 
position description, and issuing a job announcement, there is 
significant flexibility at the agency level, and, ultimately, 
the decision about what goes in there and how that is defined 
is really up to the HR specialist and the hiring manager.
    Senator Lankford. Right. So how is it working in the 
agencies at this point, for establishing that, between the HR 
folks and actually coming to the managers and such that are 
going to oversee them?
    Mr. Mahoney. It works well, when both the manager and the 
hiring specialist can collaborate with each other.
    Senator Lankford. Are they?
    Mr. Mahoney. They do and we are getting better at doing 
that. It is one of my goals to connect the HR specialist to be 
closer to the business. I think, if I look at my experience in 
the private sector and I contrast it to my experience in 
government, as an HR person in the private sector if I did not 
know the business of my customers then I was not going to be 
successful.
    And so we are working toward that to get our specialists 
more involved in meetings with the Bureaus, to understand the 
pressure that are coming if Bureaus are getting requirements 
from Congress to hire more people or to move in a certain 
direction or to reorganize. We are spending more and more of 
our time understanding that so that we can better, then, when 
it comes to hiring, write a position description that makes 
sense and write, more importantly, the job assessment we use so 
that when we do a vacancy announcement we begin to get the kind 
of quality candidates that are going to be helpful to the 
manager.
    Senator Lankford. Right. How is that working in DHS?
    Ms. Bailey. I think it is kind of like a mixed bag, right? 
We do have--absolutely--not just pockets of success, I think we 
have by and large success across the board. Because it is one 
of these things where what we have discovered is that when the 
hiring managers are not involved in this they end up with folks 
that, on their, what is called a certificate for selection, 
they end up with folks that they just believe are not qualified 
at all.
    And so one of the things that we have said is, why do you 
not come on in, let us sit down together, let us actually talk 
about what is it that you are really trying to get 
accomplished. What are the capabilities that you need? What are 
some of the soft skills, meaning do you need critical thinking? 
Do you need decisiveness? I mean, what are some of the things 
that you actually need, and then let us just work together to 
actually put out a job announcement that collectively we think 
will get the right kinds of folks to apply for those positions.
    It also, I think, has to do with some of the recruiting 
that we have going on as well, getting the managers more 
involved in the recruiting up front so that they can actually 
see some of these resumes that are coming in and get a feel for 
the kind of talent that is out there.
    So we successfully used that when we did our joint hiring 
event last summer, and, actually, it might have been two 
summers ago. But, anyhow, we successfully used that. We 
literally had a table like this of HR specialists and CIO 
folks, and together they sat down and they looked at 2,500 
resumes that walked in that door, and together they decided on 
who met the qualifications that they were looking for, and then 
they got referred to actually get interviewed. And we made 
close to 350 tentative job offers that day, by having that kind 
of relationship.
    So what we need to do, though, since DHS is a huge agency, 
is just replicate that, that kind of back-and-forth and that 
kind of partnership across the components, and across the 
different occupations.
    Senator Lankford. That is great. So, Mr. Reinhold, let me 
follow up on something we talked about in April 2016. You have 
been here multiple times. We have had lots of conversations 
here. We talked to you, at that time, about the frustration 
that applicants feel when they are not getting feedback on the 
process. You and I have both expressed that and understood it 
well, and said that something has to change in how people are 
getting feedback and they are going through the job process. 
Otherwise they take other jobs in other places, just because 
they have not heard or they just get frustrated and think if it 
is going to be like this then I am not going to bother to be 
able to jump in.
    How is that going, getting feedback to the applicants?
    Mr. Reinhold. So we have tried to come at it from a couple 
of different ways. One way is through USA Jobs, where we have 
created some new functionality that provides, what I will call 
a little bit of a dashboard, if you will, for the applicants, 
so they can see at critical points of the hiring process where 
is it now? Is it the job announcement has closed? Has a 
referral been issued? Has a selection been made?
    There is also functionality in USA Jobs that can draw from 
agency inputs that will give the individual specific feedback. 
So, for example, beyond kind of the little timeline thing I 
mentioned, there are data points that agencies can feed into 
USA Jobs so that an applicant can go check on the status at any 
given time. So it is kind of both a broad, here is a general 
dashboard so you know where----
    Senator Lankford. For that job opening or for them, in 
particular?
    Mr. Reinhold. For that specific job opening, yes.
    And then, in addition to that, one of the things we have 
continued to emphasize through the Hiring Excellence campaign 
and other engagements with agencies is really the importance of 
keeping applicants apprised of what is going on. And we 
emphasize that with the HR folks and the managers. Because one 
of the things we have found is that, even once a selection is 
made and the person is waiting, perhaps, for security vetting, 
it is a great practice for a manager to periodically check in 
with the person, just to kind of make sure that, how are things 
going, we are still working on it, we are still interested in 
you, just to kind of have that reassurance that it is not just 
in some black hole.
    So I think, like I said, we are trying to come at this from 
different ways, and, certainly we are continuing to look for 
solutions.
    Senator Lankford. So the question is, what you just 
described to me on USA Jobs and such, and the hiring process, 
and the online look at that dashboard, as you described it, if 
I were to go look at that right now and go across multiple 
agencies, are all agencies putting their information in there, 
and so you can see that, or some doing it and some are not? 
What do you think?
    Mr. Reinhold. So I will say it is a mixed bag. Sometimes 
what we see is that agencies are so focused on just getting 
through the process that they do not necessarily hit the right 
triggers to feed data into USA Jobs. And it is not that nothing 
is happening. It is just that they are working on other things 
and they are not timely in feeding the information to USA Jobs.
    So in those cases, yes, it is very reliant on agencies----
    Senator Lankford. So give me a ballpark of what the guess 
is of how many people are putting information in, and I can 
tell you, as a parent, for instance, looking at my child's 
grades online, some teachers do a great job of putting their 
grades in the grade book online and some of them, 9 weeks later 
it is not there yet.
    Mr. Reinhold. True.
    Senator Lankford. So I get that, but----
    Mr. Reinhold. Yes. Honestly, I do not even know if I could 
take a swag at it. It is 50-50, maybe.
    Senator Lankford. OK. I would encourage you to be able to 
follow up and just get a quick look at that and see, for us to 
be able to have the tools, a great tool to be able to have, to 
be able to know how it is used, or if it is a usable format, or 
if it is a pain to be able to use, to be able to input the 
data, the data is not going into it because it is such an 
additional hurdle that is slowing people down and just saying 
``never mind, I am not going to do it.'' But let us see, if we 
have a good tool like that, let us just see if it is actually 
usable and how it is being used.
    Senator Heitkamp. I think it is important, Mark, too that, 
you let them know that we are asking. I mean, I think sometimes 
people think if it is not--I mean, there is no accountability, 
then why do it? I mean, it is just another step. But they need 
to know that we are asking, and that we expect that we are 
going to have this tool available to us to evaluate.
    And we just have to elevate this work beyond, leave us 
alone and let us do what we are doing, because what we are 
doing is 
not achieving the results that we think we need, and it is 
creating--it is frustrating, and it is only going to get worse 
as the job market get more competitive. We are not in a spot 
where we are a preferred employer anymore. I mean, the days of 
my dad saying, ``Oh, well, it would be great, get a government 
job.'' No one says that anymore, that I know of. They look at 
it as a way to get skills that you can then get a real job 
someplace else.
    And so we have to change how people look at employment 
within these agencies and it has to begin with the folks in 
your role 
impressing upon the supervisors and pressing upon the managers 
that this is a priority, and, we are not in this for the long 
term--or the short term. We are in this for the long term.
    I cannot, Angela, let you leave without talking about the 
5-year contract that Customs and Border Protection signed with, 
I think it is Accenture. I am really disturbed by this, because 
it seems to me that a $40,000 payment, kind of bounty per new 
hire may not be the best way to recruit the best people. And I 
am concerned that what we are doing is simply a revolving door, 
I mean, because we do not seem to be able to retain.
    I mean, the last time--I forget who was in front of us--
they said that they had 100 transfers or departures from 
Customs and Border Protection, Border Patrol a month. I mean, 
so you add that up and you add $40,000 to replace, at the same 
time that there is a lot of pressure here to add more 
personnel, I mean, this is something that needs to get fixed.
    And so I am curious about what role DHS played in Customs 
and Border Protection's contract. I am curious about whether 
you were disappointed or whether you played a role in that, and 
if you did, maybe you can enlighten me on why this was a good 
deal.
    Ms. Bailey. OK. So with regard to the contract, we had an 
opportunity to sit down with CBP the other day and that 
includes with our----
    Senator Heitkamp. Were you involved in the beginning, 
Angela?
    Ms. Bailey. No. Not in the beginning. But we sat down with 
the Under Secretary, the Deputy Under Secretary, myself, we sat 
down with CBP, and we actually sat down with CBP and ICE, to 
understand both of their contracts, what is different about 
both of them so that we could really get a real feel for it, 
and to dig into the numbers a little bit more.
    So CBP, I would say that what they are really trying to 
accomplish here is go at things a little bit differently, and 
one could say that when you go after high innovation sometimes 
there is high risk with that, right? So one of the first things 
that they are doing is they know--they get thousands and 
thousands of applications. What their issue is, is getting 
folks the whole way through, and, in particular, that extensive 
security background investigation. They have drug testing, 
physicals, medicals, and then the background investigation, and 
polygraphs. So people start dropping out throughout that 
process.
    So one of the things that CBP is also investing in, with 
regard to this contract, which I think is a fabulous idea, is 
we are taking this whole idea of instead of just doing the 
dashboard where people have to go in and look to see where they 
are in the process, they are actually creating an Applicant 
Care Center. And what we are doing now is we are going to have 
people dedicated solely to doing--to literally hand-hold----
    Senator Heitkamp. But why do we need to sign a contract 
with someone else to do something that we would expect you guys 
were doing, in terms of recruitment?
    Ms. Bailey. Well, with regard, you can have your own staff 
do it or you can kind of augment it or supplement it a little 
bit with some contractors. So I think what CBP is trying to do 
is say, ``I have a lot here on my plate that I am trying to do. 
How about if we at least go at this two different ways and see 
if we cannot get better results.'' Because we all agree that 
they need to increase their results and get these positions 
filled. That is why----
    Senator Heitkamp. I think they need to look at why people 
are leaving----
    Ms. Bailey. I agree.
    Senator Heitkamp [continuing]. Border Patrol.
    Ms. Bailey. Yes.
    Senator Heitkamp. So, I look at 100 and say, OK, $40,000 
for 100 people a month, that is $40 million, or $4 million. So 
what are we doing here?
    Ms. Bailey. Right. So with regard to the Border Patrol in 
particular, what we have really started doing with Border 
Patrol is looking at where are they moving to and why are they 
leaving. Because we have to get to the root cause of what is 
really going on. And, in particular, for some of the border 
locations, which I am sure----
    Senator Heitkamp. Right.
    Ms. Bailey [continuing]. That you are familiar with this, 
and with regard to some of those, they are in very desolate 
locations where their families----
    Senator Heitkamp. Yes, I do not mean to be argumentative, 
but maybe you ought to take that $40,000 and incentivize 
somebody to move there. I mean, so you have somebody who is 
already a great employee, you are spending $40,000 per recruit 
in this system, and you are losing 100 a month. So, would that 
not tell you that maybe instead of investing in this system, 
investing in trying to figure out why people are leaving----
    Ms. Bailey. Right.
    Senator Heitkamp [continuing]. And retain them would be a 
much bigger bang for the buck.
    Ms. Bailey. Yes. So we actually are putting money into, 
with regard to the retention incidents. We agree with that. 
Also, recruitment incentives. We just met with OPM, I think it 
was last week or maybe it was 2 weeks ago, to talk about some 
legislative proposals, as well, that we would like to put in 
place to actually increase the percentage of retention and 
recruitment bonuses that we can actually give these folks to 
keep them.
    But we were also thinking about an idea that has to do 
with, like, treating these as almost like a hardship tour, like 
the military does. And so if you agree to take one of these 
locations for 3 years----
    Senator Heitkamp. I do not disagree with any of that.
    Ms. Bailey. Yes.
    Senator Heitkamp. What I disagree with is, or what I fail 
to understand, is why we need to hire a firm and spend $40,000 
per hire to that firm. That is what is very troubling to me, 
because if you multiply that out by the number of additional 
hires, this is not inconsequential in terms of dollars to the 
budget. And, we have a lot of faith in you, Angela, that you 
can create a system that will, in fact, respond. But, this is 
not being well received on this Committee, as you know. And I 
am deeply troubled that you say you just sat down with them to 
talk about this contract. It is obvious to me you did not know 
about this contract until it got exposed here.
    Ms. Bailey. Well, no. I knew about the contract. Once we 
had the proposals had come back in and we have, actually, how 
Accenture is going to perform the work----
    Senator Heitkamp. Did you negotiate the contract?
    Ms. Bailey. No.
    Senator Heitkamp. Why not? Would not you think that would 
be your role?
    Ms. Bailey. Yes, I mean, but for the components, the 
components actually have the authority to negotiate their own 
contracts, and to understand what their needs are.
    I need to be clear, though, in this $42,000, it does 
actually include doing the background investigations, the 
medical, the drug testing, the physicals, and everything. So I 
just want to make sure that we are clear that it covers 
everything. It is not just covering recruiting.
    And so, as you know, background investigations can be very 
expensive, as well as the medicals, physicals, and etc. And 
then the investment, they are also investing in business 
process re-engineering to see whether or not their processes 
are really making sense. For example, their entrance exams, 
does it make sense where they have it?
    So this contract is intended, by CBP, to cover how----
    Senator Heitkamp. How long has it been since they signed 
the contract? When was the contract signed?
    Ms. Bailey. I think November.
    Senator Heitkamp. November.
    Ms. Bailey. I think November. And it is for a small 
portion. It is not for all of their hires. It is only for about 
a quarter of their hires. The rest of their hires will continue 
on under their current system.
    Senator Heitkamp. Yes. I mean, the jury is out on this, 
and, obviously, a lot of concern about the inability to 
retain----
    Ms. Bailey. Yes.
    Senator Heitkamp [continuing]. Against, in a very expensive 
hiring process. I do not disagree with that.
    Ms. Bailey. Right.
    Senator Heitkamp. I think it is expensive no matter how you 
do it. But, I look at $40,000 and think, if I bonused somebody 
$5,000 a year, that might do more in retention. I get to keep 
four of those guys for what it costs you to recruit a new one.
    Ms. Bailey. Right. We are absolutely doing that. We are 
also even pursuing, like, special salary rates as well. We did 
that for the polygraph examiners and also for our agriculture 
specialists and for our officers, like, up on the Northern 
Border, to try to combat some of this. So we are with you on 
that, with regard to putting money into the retention 
incentives, the relocation.
    We also, so speaking of that, when they do relocate, we 
need to put money aside, as well, to help them pay for those 
moves, to go to the next place, which would be an 
encouragement, I think, for them. We are also thinking--and I 
think it is part of our proposals that we want to put forward 
now--is this idea--I worked on this whenever I was at OPM with 
the Department of Defense (DOD), a spousal preference for the 
military spouses. And we were thinking perhaps we could come up 
with a DHS spousal preference that would at least give them, in 
these different areas an idea.
    Senator Heitkamp I do not want to belabor this and I am 
sure we are going to have ongoing discussions, but I trust you 
to do your job. I just do not know why we need to spend this 
kind of money, outside a system, when this is going to be a 
recurring problem. We need to have capability within the 
organization. I do not like off-sourcing this. I want you to be 
in charge of it. I want this to be a systematic, system-wide 
discussion without taking the short cut and hiring someone for 
which we have no idea whether that is going to improve 
retention rates at all.
    Ms. Bailey. Yes.
    Senator Heitkamp. And so, you are going to get them through 
the door. Is there any guarantee that they are going to stay?
    Ms. Bailey. Right. So we need--yes, right. I understand, 
ma'am.
    Senator Lankford. Before I recognize Senator Hassan, can I 
ask a quick question on that as well? Do we know the costs of 
hiring when it is done through the Federal agencies? Because 
you talked about it includes drug testing, it includes the 
background check, it includes all the onboarding. Do we have a 
ballpark now, if we do it through Federal entities, what is the 
cumulative cost to hire versus what this outside contract is?
    Ms. Bailey. Yes. We have actually looked at data, and I 
have seen some of the studies and I have seen anywhere from 
$35,000 to, you have the $42,000. I have seen it higher than 
that. So I think what I would need to do is actually get back 
to you on that, so that I am just, at least telling you exactly 
the facts, versus just trying to kind of guess.
    Senator Lankford. That would be great. That would be very 
helpful. Yes, if that figure exists, because if it is an all-
encompassing contract----
    Ms. Bailey. Right.
    Senator Lankford [continuing]. It is not just you, it is 
other entities as well----
    Ms. Bailey. Right.
    Senator Lankford [continuing]. That are a part of that, and 
it would be good to get an apples-to-apples comparison of that.
    Ms. Bailey. Yes, and I think it would be smart to break it 
down by the process, because not everybody has to do a 
polygraph, for example----
    Senator Lankford. Right.
    Ms. Bailey [continuing]. And different parts.
    Senator Lankford. It would be helpful. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair, and thank you to the 
witnesses for being here. And I have been at other hearings so 
I have a couple of questions. They may cover a little bit of 
territory that you have already covered, and I apologize, but I 
did want to get back and ask them.
    And I wanted to start, Mr. Mahoney, with you, because you 
have worked at several agencies in similar capacities, as I 
understand it. So the question I have is, in your experience, 
would you say that most of the hiring issues at the agencies 
you have worked at have been specific to that agency or have 
the problems been governmentwide, and can you provide some 
examples.
    Mr. Mahoney. Thank you for the question, Senator. The 
hiring process is the same across all agencies. It is the way 
the government does it.
    Senator Hassan. Yes.
    Mr. Mahoney. It does vary from place to place. When I was 
at Small Business Administration, our focus was usually on the 
field jobs, and those were different----
    Senator Hassan. Yes.
    Mr. Mahoney [continuing]. Than they are, let us say, at 
Census, where I am now.
    So the specific jobs that we are hiring for change. The 
process stays the same. But we still can look at each job 
series or hiring series as an individual event, and if we have 
the opportunity to use a specific hiring authority, like, for 
example, something to attract people who have just left the 
Peace Corps----
    Senator Hassan. Right.
    Mr. Mahoney [continuing]. And bring them on board quickly, 
we will do that. So we can take hiring flexibilities and apply 
them to the jobs while still using a process that is universal 
across the institution.
    Senator Hassan. So you find, in different agencies, they 
are able to find those flexibilities, those particular fits, 
for instance?
    Mr. Mahoney. I think when there is a good working 
relationship between the hiring specialist and the hiring 
manager, where you could actually sit down and kind of noodle 
through some of these things at the beginning, then you can 
accomplish a great deal.
    Senator Hassan. OK. That is helpful.
    And I wanted to touch a little bit more, Mr. Reinhold, on 
the issue of background checks. We were just talking about some 
of it with regard to Senator Heitkamp's line of questioning. 
But as I understand it, as of several weeks ago, the Office of 
Personnel Management had over 700,000 Federal job applicants 
waiting for a completed background check or security clearance, 
and the GAO has recently added the background check effort to 
its annual list of high-risk programs.
    I appreciate the hard work that civil servants are doing 
every day to process these forms, but it is really critical 
that we do everything we can to improve the efficiency of this 
process for the sake of the whole Federal workforce, while also 
making sure we are giving security clearances to people who 
have been fully vetted.
    Could you talk about the impact that this backlog is having 
on the length of the hiring process and what steps your agency 
is taking to reduce them?
    Mr. Reinhold. Yes. Thank you for that question. So we could 
not agree more that ensuring the integrity of the Federal 
workforce is a critical priority. Certainly there are various 
levels of sensitivity of positions across the Federal 
Government, and some are deemed non-sensitive, which, in those 
cases a security check could involve something as minimal as, 
things like a fingerprint check.
    Senator Hassan. Right.
    Mr. Reinhold. Certainly for higher levels of sensitivity, 
the investigation is much more robust, and in those situations 
those can certainly take more time, and in cases where there 
are large inventories, certainly that can have an impact on the 
hiring process.
    Senator Hassan. Right.
    Mr. Reinhold. I think one of the things that I would note--
and this is not a program that is within my portfolio, so I 
will probably limit how much I speak about it--but one of the 
things I would note is that a large percentage of that 
inventory is reinvestigations of individuals who are already on 
board.
    Senator Hassan. OK.
    Mr. Reinhold. There are requirements for periodic 
reinvestigation.
    Senator Hassan. Yes, OK.
    Mr. Reinhold. So that kind of contributes to the inventory. 
But those are not necessarily related to new hires.
    But I guess I will close by saying it is certainly an area 
that OPM is very focused on, and I know we are very committed 
to working through that inventory.
    Senator Hassan. Do we have--is it is a lack of people to do 
the background checks? Is it that the system could be leaned 
up, so to speak? I mean, is it the process for background 
checks? Do we need more technology? What is creating the 
backlog?
    Mr. Reinhold. Yes. In candor, I do not have a lot of 
visibility into that----
    Senator Hassan. OK.
    Mr. Reinhold [continuing]. But I think it is certainly 
something we would be happy to gather information and circle 
back with you.
    Senator Hassan. Well, I would very much like to follow up 
on it, because in my experience, there are times when people 
really have not drilled down on the process itself, and whether 
it can be sped up with some new techniques, whether things 
always have to happen sequentially or whether they can happen 
simultaneously. All of those kind of questions are important 
for us to look at, so I would look forward to working with you 
on that.
    Mr. Reinhold. Absolutely.
    Senator Hassan. Thank you. That is all I had, Mr. Chair.
    Senator Lankford. OK. So I have a couple of quick questions 
and then we are going to wrap it up here. And I know you are 
excited about wrapping it all up here, and I appreciate your 
input on this.
    Thirty-one percent of our Federal employees across Federal 
workforce are eligible to retire, at this point. So what we are 
trying to figure out, in this panel, is how is the hiring 
process going to be improved. We have had numerous 
conversations about how do we pick up a day here, a day here, a 
day there in the hiring process, knowing that we have the 
potential of having so many openings coming so quickly soon.
    Give me one idea of how to improve the speed of the hiring 
process. Go for it.
    Mr. Mahoney. I think Senator Daines expressed it correctly, 
although I would say recruit, recruit, recruit. Managers who 
are successful in the hiring process are the managers who are 
always looking for talent, understanding where the talent is, 
knowing the skills that they are looking for. When they do that 
and a hiring opening occurs, it always moves a lot quicker when 
they have a group of candidates that they have asked to apply 
for a position. It does not take away from the competitive 
nature of what we do, but it always helps the process move 
forward.
    So I would say, and this is not something that you have to 
do, as a committee. It is really a mindset that the manager has 
to have, to always be looking for candidates and talent.
    Senator Lankford. OK. Ms. Bailey.
    Ms. Bailey. I would recommend that we--I think it would be 
helpful if we could get out of this laborious rating and 
ranking process that we are in, because when we get in all of 
these resumes we have to go through a whole lot of different 
rules and regulations to try to make sure that we get them in 
the right order, to put them on all these different 
certificates that some are for non-competitives, some are for 
competitives, some are for veterans, some are for Schedule A, 
and it just gets overwhelming, I think, for everybody.
    My recommendation would be that the agencies be given the 
authority, especially whenever they are at these recruiting 
events, that they have the authority that when they get the 
resumes in that they can actually look at these folks, they can 
qualify them on the spot, they can interview them on the spot, 
and they can make tentative job offers on the spot. And I think 
you would cut out at least 6 weeks of all of this back-and-
forth that goes on with regard to the hiring process if we 
could just have the authority to actually interview people and 
make decisions.
    Senator Lankford. Why does that not happen now?
    Ms. Bailey. Because of the way Title 5 in the competitive 
process is actually regulated. Right now we cannot. You might 
call it direct hire authority, right, but I want to be careful 
just calling it direct hire authority, because I think that 
that kind of gets away--if we call it just direct hire 
authority then you have to meet all these rules with regard to 
that the folks--there is either a severe shortage or a critical 
need, or whatever, and you have to prove mountains worth of 
paperwork just to prove that.
    We were so successful at our joint hiring events because, 
yes, we did have direct hire authority, but we could bring 
people together, not only our HR specialists and our hiring 
managers but we brought security in there too. We lost the vast 
majority of our people whenever they have to go to the 
Electronic Quesionnaires for Investigations Processing (e-QIP) 
system and start filling out the background investigation 
paperwork. They give up.
    And so having somebody there, at that time, to say not only 
do we like you, we have interviewed you, now we are going to 
walk you down, we are going to fingerprint you, we are going to 
help you get into the background investigation system, we are 
going to help you set up your medicals and your physicals and 
everything else that you need to do. We cut out, literally, 6 
weeks out of that process by doing that.
    So that is the one thing that I think would be hugely 
advantageous to the agencies if we had the ability to do that.
    Senator Lankford. Mr. Reinhold, why can we not do that?
    Mr. Reinhold. Well, so, I would like to make a half a dozen 
points but I will just pick one. I think there are huge gains 
to be made if we invest in tools and technology, and a prime 
example here is in the area of assessments. If we focus on 
applying good, robust assessments that hone in on the kinds of 
skills and competencies we are looking for, and facilitate it, 
enabled through technology, a lot of this can be done, it can 
help us cull through large numbers of applicants. And there are 
cases where we have thousands of people applying, and if you 
are using a manual process to look at those, or an 
unsophisticated assessment, it is really hard to make 
distinctions and really sort out who are the best from the 
rest.
    So I would say assessments enabled by tools and technology.
    Senator Lankford. OK. What about the direct hire question? 
What would prohibit--we have had this conversation before 
between agencies given the ability to be able to hire, and a 
standard to say, at the end of the year, we are going to ask 
you, have you met this criteria, for whatever that criteria may 
be for your hiring, to be able to make sure that you are within 
range for every set of criteria that you have, but you have 
direct hire authority to be able to expedite that process.
    Mr. Reinhold. So I guess I would say direct hire authority 
is really important flexibility, and I think there is certainly 
a willingness to engage in dialogue to see how we can take a 
fresh look at the rules.
    When it comes to things like direct hire authority, as you 
know there are many equities in the Federal hiring process and 
there are long-standing principles that we honor, things like 
honoring the service of our military veterans. And when it 
comes to things like direct hire authority, some of those 
principles apply to different extents. So we just have to make 
sure that we are taking all those things into consideration, 
that we are really taking a holistic look at, not just creating 
a flexibility at the expense of something else, but making sure 
that we are looking at it holistically and, responding to many 
different interests and equities.
    Senator Lankford. So here is my request. There are things 
that all of you are doing currently to be able to help in this 
process, and I appreciate the partnership very much and we are 
glad to be able to partner with you. Anything that we can do to 
be able to help.
    We need to know what we need to do to help. You see it, and 
to think we would be able to do this faster, better, have a 
better employee, have a better process on probation, have a 
better process on oversight and training. All of those things, 
you see it but you also see we would do this but here is the 
part that prevents us from this, here is something else that 
prevents us from this. We need to know that so we can have that 
dialogues.
    So legislative proposals or questions that you have, if you 
know of solutions already to say this, we believe, would be a 
good process except for this, we need to hear it. And so as 
much as we can get specific ideas and proposals back from you 
to allow us to be able to have this ongoing debate here, we are 
glad to have it, and we are glad to be able to sit down and be 
able to work through the process. We probably cannot get 
through everything but I bet we can get through several things. 
But we have to be able to hear it from you.
    So I want you to hear from us. We want your legislative 
proposals and ideas, because you see where the barriers are 
more than we do, because you have to live with it day to day.
    Any other final questions? I know we are running close on 
time. Any thoughts that you all have that you want to be able 
to share?
    [No response.]
    OK. Let me make a quick closing statement. I will let you 
all get out of here and actually get lunch or something.
    I do want to thank the witnesses for their testimony. I do 
appreciate you coming very much and your preparation for this. 
The hearing record will remain open for 15 days until the close 
of business on March 16, for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
